y
rs
No.

yd

aSa\liaa&£
Supreme Court, U.S.
FILED

JUN 0 2 2021

IN THE
SUPREME COURT OF THE UNITED STATES

JOSEPH ANDREW PHIPPS,

OFFICE OF THE CLERK

— PETITIONER

(Your Name)

vs.
NEIL MCDOWELL, Warden,

— RESPONDENT(S)

ON PETITION FOR A WRIT OF CERTIORARI TO

U.S. District Court of California/Central District
(NAME OF COURT THAT LAST RULED ON MERITS OF YOUR CASE)
PETITION FOR WRIT OF CERTIORARI

Joseph Andrew Phipps CDCR#AY1198
(Your Name)
B 3-1-4 Low, Po Box 2349
(Address)
Blythe, CA. 92226
(City, State, Zip Code)
N/A
'(Phone Number)

•

QUESTION(S) PRESENTED

1) Does Petitioner have a due process right to jury instructions on
lesser included offenses?
2) Does the Equal Protection Clause of the 14th Amendment require
the holdings in Beck v. Alabama, 477 U.S. 625 (1980) to apply to
noncapital cases?
3) Do this Court's holdings in Beck v. Alabama, (supra) apply to noncapital
cases ?
4) Does the void in protection created by the AEDPA lie to vindicate
the guarantee of due process by the 5th and 14th Amendments in
this case and cases similarly situated?
5) Does the void.in protection created by the AEDPA lie to vindicate
the guarantee of equal protection by the 14th Amendment in this
case and cases similarly situated?
6) Is the admission of irrelevant or overtly prejudicial evidence
a violation of the due process clauses of the 5th and 14th Amendments?

i

TABLE OF CONTENTS
OPINIONS BELOW

1

JURISDICTION

2

CONSTITUTIONAL AND STATUTORY PROVISIONS INVOLVED ....
STATEMENT OF THE CASE

3
4-7

REASONS FOR GRANTING THE WRIT
CONCLUSION

8-12
13

INDEX TO APPENDICES
APPENDIX A

Order accepting findings and recommendations of the
United States Magistrate Judge and District Court's
Judgement/District Courts denial of COA

APPENDIX B

U.S. Magistrate's Report and Recommendation

APPENDIX C

Petitioner's 28 U.S.C. 2254 petition

APPENDIX D

APPENDIX E

APPENDIX F.

ii

TABLE OF AUTHORITIES CITED
CASES

PAGE NUMBER

Beck v. Alabama, 477 U.S. 635 (1980)

5, 8 , & 9

Bobby v. Mitts, 563 U.S. 395 131 S.Ct. 1762 179 L.
Ed.2d 819

10

Holly, 586 F. 3d at 1098

11

Musladin 549 U.S. at 77

11

Pena v. Tilton, 758 Fed. Appx. 695, 695 (9th Cir.
2014)

11

STATUTES AND RULES
28 U.S.C. §2254 (d)(1)

3, 4, 6. & 8

28 U.S.C. §453

3, & 10

U.S. Constitution Amendment V

3

U.S. Constitution Amendment XIV

3, & 9

OTHER

iii

LIST OF PARTIES

[Xl All parties appear in the caption of the case on the cover page.
[ 1 All parties do not appear in the caption of the case on the cover page. A list of
all parties to the proceeding in the court whose judgment is the subject of this
petition is as follows:

RELATED CASES
Any related cases are unknown to petitioner at this time.

iv

IN THE
SUPREME COURT OF THE UNITED STATES
PETITION FOR WRIT OF CERTIORARI
Petitioner respectfully prays that a writ of certiorari issue to review the judgment below.
OPINIONS BELOW
[x] For cases from federal courts:
The opinion of the United States court of appeals appears at Appendix
the petition and is

to

[ ] reported at
; °r,
[ ] has been designated for publication but is not yet reported; or,
[. ] is unpublished.
The opinion of the United States district court appears at Appendix
the petition and is

B__ to

[ ] reported at
; or,
[ ] has been designated for publication but is not yet reported; or,
[5Q is unpublished.
[ ] For cases from state courts:
The opinion of the highest state court to review the merits appears at
Appendix-------- to the petition and is
[ ] reported at
; or,
[ ] has been designated for publication but is not yet reported; or,
[ ] is unpublished.
The opinion of the _
appears at Appendix

_ court
to the petition and is

[ ] reported at
; or,
[ ] has been designated for publication but is not yet reported; or,
[ ] is unpublished.
1.

JURISDICTION
[X] For cases from federal courts:
The date on which the United States Court of Appeals decided my case
was Jan. 15, 2021
[ ] No petition for rehearing was timely filed in my case.
[ ] A timely petition for rehearing was denied by the United States Court of
Appeals on the following date: ___________________ __ and a copy of the
order denying rehearing appears at Appendix
[ ] An extension of time to file the petition for a writ of certiorari was granted
to and including______
(date) on
(date)
in Application No.__ A
The jurisdiction of this Court is invoked under 28 U. S. C. § 1254(1).

[ ] For cases from state courts:
The date on which the highest state court decided my case was
A copy of that decision appears at Appendix_______
[ 1 A timely petition for rehearing was thereafter denied on the following date:
and a copy of the order denying rehearing
appears at Appendix
[ ] An extension of time to file the petition for a writ of certiorari was granted
to and including______________ (date) on
(date)in
Application No.__ A
The jurisdiction of this Court is invoked under 28 U. S. C. § 1257(a).

2

CONSTITUTIONAL AND STATUTORY PROVISIONS INVOLVED
28 U.S.C. §2254(d);
An application for writ of habeas corpus on behalf
of a person in custody pursuant to the judgement
of a State court shall not be granted with respect
to any claim that was adjudicated on the merits
in State court proceedings unless the adjudication
of the claim - (1) resulted in a decision that was
contrary to, or involved an unreasonable application
of, clearly established Federal law, as determined
by the Supreme Court of the United States; or (2)
resulted in a decision that was based on an unreasonable
determination of the facts in light of the evidence
presented in the State court proceeding.
U.S. Constitution Amendment V;
No person shall be held to answer for a capital,
or otherwise infamous crime, unless on presentment
or indictment of a Grand Jury, except in cases arising
in land or naval forces, or in the Militia, when
in actual service in time of war or public danger;
nor shall any person be subject for the same offense
to be twice put in jeopardy of life or limb; nor
shall be compelled in any criminal case to be a
witness against himself, nor be deprived of life,
liberty, or property, without due process of law;
nor shall private property be taken for public use,
without just compensation.
U.S. Constitution Amendment XIV, Section 1;
All persons born or naturalized in the United States,
and subject to the jurisdiction thereof, are citizens
of the United States and of the State wherein they
reside. No State shall make or enforce any law which
shall abridge the privileges or immunities of citizens
of the United States; noe shall any State deprive
any person of life, liberty, or property, without
due procees of law; nor deny to any person the equal
protection of the laws.
Judicial Oath 28 U.S.C. §453;
, do solemnly swear (or affirm) that
I,
I will administer justice without respect to persons,
and do equal right to the poor and to the rich,
and that I will faithfully and impartially, discharge
and perform all duties incumbent upon me as __________
under the Constitution and laws of the United States.
So help me God.
3

STATEMENT OF THE CASE
To save time and valuable judicial resources and to avoid being
repetitive petitioner will rely on the statement of facts and the
procedural history contained in the Magistrate's R&R. He will
only discuss the pertenent portions of the case as they pertain to
his arguments in support of his questions of law.
Petitioner was convicted of killing his wife during an argument.
He was tried for first degree murder, and the jury found guilt for
second degree murder on July 17,2015.
in the State Appellate Court

Petitioner filed a timely appeal

raising 11 claims of Constitutional

error. All 11 claims were denied and this convition affirmed. He
then filed a timely petition for review in the California Supreme
Court which denied review without comment.
On June 16, 2018 Petitioner filed a petition for writ of habeas
corpus in the United States District Court, Central District of California
pursuant to 28 U.S.C. 2254. On August 16,2019 The U.S. Magistrate
filed his Report and Recommendation with the District Judge. On
September 26,2019 District Judge Percy Anderson adopted the R&R and
denied and dismissed the petition with prejudice and at the same time
denied COA. Petitioner then filed a timely petition with the 9th Circuit
Court of Appeals requesting that COA be issued. On January 15,2021
the 9th Circuit denied COA.
Per this Court's order Dated March 19,2020 extending allowed time
for filing a petition for certiorari to 150 days from date of lower
court's judgement, Petitioner's due date is June 14,2021. Thus, this
petition must be considered timely.
In Petitioner's 28 U.S.C. 2254 petition he raised 11 claims of
Constitutional violation, (see appendix C) Of the 11 claims only
4

two involved unsettled questions of law that this Court has not yet
established, claims II and III. (see appendix B & C)
In Claim II Petitioner argued that he had a Constitutional right
to and the State had a sua sponte duty to instruct on the lesser
included offense of Imperfect Self Defense.
In the Report and Recommendation the Magistrate correctly cites
Federal law concerning the right to jury instructions regarding lesser
included offenses. Citing Beck v. Alabama, 477 U.S. 635,638 (1980)
he stated;

-

In Beck v. Alabama, 477 U.S. 625, 638 (1980) the
United States Supreme Court held that a defendant
in a capital case has a constitutional right to
a jury instruction regarding a lesser included
offense supported by the evidence. The Supreme
Court, however, has not decided whether due process
requires lesser inlcuded offense instructions to
be given in noncapital cases. (R&R pp. 18-19)
The Magistrate goes on to argue that Petitioner's claim is further
barred by the Teague rule, but relied primarily on the "foreclosure"
of relief created by the A.E.D.P.A. concerning instructions on lesser
included offenses. When passing on the Merits of the claim, the Magistrate
states;
Thus Ground Two does not assert a constitutional
error upon which habeas relief can be granted. In
addition, AEDPA forecloses relief. Because no
Supreme Court authority holds that a defendant
has a constitutional right to a jury instruction
on a lesser included offense in a noncapital case...(R&R p.21)
Had this Court established that the holdings in Beck (supra) applied
to noncapital cases in the past

the Teague argument would have been

a moot issue. Moreover, The Magistrate misapplied Teague because the
new rule established would have been a "watershed" rule and would
have effected thousands of people. But the Teague argument is irrelevant
to the instant petition.

5

The fact that this Court has not yet said that the holdings in Beck
(supra) apply to noncapital cases completely foreclosed-relief in
this case. The Federal Court is barred from applying the due process
clauses of the constitution by the AEDPA and 28 U.S.C. 2254 (d).
The second unsettled question of law is found in claim three of
the petition and the Magistrates R&R. At trial the State used a
"Gun Expert" to give a "demonstration" to show that the victim could
not have shot herself in the manner that the defense claimed happened.
Using a replica gun that was different than actual firearm used in
the crime, the expert reenacted the way in which a right handed person
would have had to hold the gun in order to shoot herself in the left
temple. He tried to show that it would have been impossible.
The Federal petition argued that this evidence was extremely prejudicial
because the replica gun was not the same size and the reenactment did
not take into account the fact that the defendant’s version of the facts
were that he was truggling with his wife over the gun when it went of.
Thus there were no influences of arms being bent and. forced into odd
positions during the reenactment. These issue rendered the expert's
demonstration not only irrelevant but was also overtly prejudicial.
In the Magistrate's R&R he openshis "Analysis" by stating;
To obtain federal relief, Petitioner must show that
the Court of Appeal unreasonably applied clearly
established federal law as set forth by the United
States Supreme Court when it concluded that the
replica gun demonstration did not violate due
process. 28 U.S.C. 2254(d)(1). Because the Supreme
Court has never clearly held that admission of
irrelevant or overtly prejudicial evidence may
violate due process so as to warrent federal habeas
relief, Holly, 568 F.3d at 1101 "there was no
clearly established federal law for the State
Court's determination to contravene" Pena v. Tilton,
578 Fed. Appx. 695, 695 (9th Cir. 2014). '"When
there is no clearly established federal law on
on issue, a state.court cannot be said to have.,
unreasonably applied the law as to that issue.
i
6

Holly, 568 F.3d at 1098 (citing Musladin, 549
U.S. at 77). Thus Petitioner's claim fails under
AEDPA.
Thusly, the Magistrate was barred from granting relief even if he
had of found that the admission of the expert evidence was a violation
of

due process. Federal District Courts are barred under the AEDPA

from making such judgement calls.
For the prupose of this petition, these are the only two Grounds
raised.

7

REASONS FOR GRANTING THE PETITION
ARGUMENT FOR BECK V. ALABAMA
In 1980 This Court decided in Beck v. Alabama, 477 U.S. 625, 638
(1980) that;
the death penalty may not be imposed, "when {***822] the
jury was not permitted to consider a verdict of guilt of
a, lesser included noncaptial offense, and when the evidence
would have supported such a verdict. 477 U.S.,at 627
100 S.Ct. 2382, 65 L.Ed.2d. 392.(Internal quotation marks
ommitted). We explained that such a scheme intolerably
enhances the "risk of an unwarranted conviction."
Then in 1996 Congress passed the Anti Terrorism and Effective Death
Penalty Act known as the AEDPA. The AEDPA altered 28 U.S.C. 2254 and
curtailed a fedral court's ability to intervene in a State court
conviction.
28 U.S.C 2254 (d) reads;
c

An application for writ of habease corpus on behalf
of a person in custody pursuant to a judgement of a
State court shall not be granted with respect to any
claim that was adjudicated on the merits in State court
proceedings unless the adjudication of the claim- (1)
resulted in a decision that was contrary to, or involved
an unreasonable application of, clearly established
Federal law, as determined by the Supreme Court of the
United States; or (2) resulted in a decision that was
based on an unreasonable determination of the facts
in light of the evidence presented in the State court
proceeding.
In this case, and many like it, the United States District Court

was restricted from deciding if Petitioner's due process rights were
violated because of a void created by the AEDPA and this Court's silence
on whether or not the holdings in Beck (supra) apply to noncapital
cases.
Petitioner has argued that he had a due process right to have his
jury instructed on the lesser included offense of imperfect self defense
8

in his federal habeas petition. The District Court ruled that due to
the dictates of the AEDPA and the fact that the Supreme Court has not
yet made clear that the holdings in Beck v. Alabama, 477 U.S. 625 apply
it cannot be said that the State court's denial of this same issue
was contrary to or an unreasonable application of Beck.(supra)
Thus, Petitioner was denied consideration of his claim of due process
violation. This is a void in the application of the right to due process
guaranteed by the 5th and 14th Amendments of the Constitution. In other
words, this petitioner is being denied due process of law because of
a glitch in the system. He has a right to have a Federal court decide
if he has! a due process right to a jury instruction on lesser included
offenses. This glitch is being caused by this Court.'.s silence on an
unaswered question of law.
Perhapse this Court has not answered this question in the past because
it would create a "watershed" rule that would open a flood gate of
cases in the courts nation wide. However, this should not be a determent.
One of the very first qualifications for the granting of certiorari
is that the answer to the question of law must effect a large portion
of the population. This would certainly qualify.
Moreover, Petitioner has an equal protection right to the same due
process as Beck. The 14th Amendment guarantees equal protection;
U.S. Constitution Amendment XIV, Section 1; All
persons born or naturalized in the United States,
and subject to the jurisdiction thereof, are citizens
of the United States and of the State wherein they
reside. No State shall make or enforce any law which
shall abridge the privileges or immunities of citizens
of the United States; nor shall any State deprive
any person of life, liberty, or property, without
due process of law; nor deny to any person the equal
protection of the laws.

9

Per the equal protection clause of the 14th Amendment, this right
extends to Petitioner in this case and is cause for this Court to
grant certiorari and vendicate Petitioner's due process rights.
Moreover', each and. every Honorable Justice now sitting on this bench
swore in their judicial oath^to do equal right to all citizens;
Judicial Oath 28 U.S.C. §453; J,__________ , do solemnly
swear (or affirm) that I will administer justice
without respect to persons, and do equal right
to the poor and to the rich, and that I will faithfully
and impartially discharge and perform all duties
incumbent upon me,as ___________ under the Constitution
and laws of the United States. So help me God.
If this Court is to do equal right and faithfully discharge and
perform all duties incumbent upon it, then this petition must be granted.
The Court may argue that there is a distiction between Petitioner's
case and that of Beck. Perhapse the Court may feel that a capital
case should be treated different from a noncapital case. Petitioner
argues in oppostition.
In Bobby v. Mitts, 563 U.S. 395 131 S.Ct. 1762 179 L.Ed.2d 819
This Court opined;
The logic of the United States Supreme Court's decision
in Beck is not directly applicable to penalty phase
proceedings. The concern in Beck regarding the risk
of an unwarranted conviction is simply not translateable
to the deliberative process in which the capital
jury engages in determining the appropiate penalty.
In other words this Court's focus in Beck was not on the penalty f0r
the crime.if convicted but on the risk of an unwarranted conviction.
Thus, It cannot be said that the due process right to a jury instruction
on lessser included offenses does not apply to all criminal defedants,
as all criminal defendants are at risk of unwarranted convictions.

10

ARGUMENT AGAINST ADMISSION OF
IRRELEVANT OR OVERTLY PREJUDICIAL EVIDENCE
In Ground III of Petitioner's Federal Habeas petition, he argued
that the trial court violated due process when it allowed the admission
of evidence that was irrelevant or overtly prejudicial. The evidence
was a demonstration performed by the State's firearm expert. The defense
objected to the demonstration because the expert used a replica gun
that was different in size from the actual firearm in the case. Moreover,
the expert did not demonstrate the effects of arms and wrists being
twisted in unatural angles during a strugle. The evidence was very
prejudicial and should not have been admitted.
The District Court foreclosed relief on this issue because the Supreme
Court has never established the admission of irrelevant or overtly
prejudicial evidence as a violation of due process. Citing the AEDPA
the Court said;
To obtain federal habes. relief, Petitioner must
show that the Court of Appeal unreasonably applied
clearly established federal law as set forth by
the United States Supreme Court when it concluded
that the replica gun demonstration did not violate
due process. 28 U.S.C. §2254(d)(l). Because the
Supreme Court has never clearly held that admission
of irrelevant or overtly prejudicial evidence may
violate due process so as to warrant federal relief,
Holly, 586 F.ed at 1101, "there was no clearly established
federal law for the state court's determination
to contravene." Pena v. Tilton,758 Fed. Appx. 695,
695 (9th Cir. 2014). "When there is no clearly established
federal law on an issue, a state court cannot be
said to have unreasonably applied the lav? as to
that issue." Holly, 568 F.3d at 1098 (Citing Musladin,
549 U.S. at 77). Thus, Petitioner's claim fails
under AEDPA.
As in Beck v. Alabama we have a void where due process cannot reach.
Review is forclosed in this claim because the AEDPA restricts federal
court intervention and the Supreme Court has not clearly established
the rule of law concerning the admission of irrelevant or overtly
11

prejudicial evidence.
Again, this issue is another "watershed" question that the answer
would effect thousands of people. Anytime a'citizen of the United
States petitions

a Federal Court to decide a

question of law-that

is of Constitutional magnitude, the court should not turn that petitioner
away without an answer. The due process clauses of the 5th

6th

and

14th Amendments guarantee all citizens the right to be heard and answered.
It is axiomatic.
Both these issues, the question concerning Beck and the question
concerning the admission of irrelevant or overtly

prejudicial evidence

begs answers. A flay in due process protection has been created by
the AEDPA and it must be addressed. It is the sworn duty of this Court
to address it.

12

In conclusion Petitioner prays this Court will fill the void created
by the AEDPA and the answered questions of law. It is well within
the Court's power and duty to ensure that the rights and protections
crehted by the 5th, 6th, and 14th Amendments are administered equally
and that there are no areas of the law where those rights and protections
cannot reach.
The question concerning Beck has been left unaswered for far too
long and due process demands an

answer. Moreover

all criminal defendants

should know whether or not they have a Constitutional right to not
have irrelevant or overtly prejudicial evidence used against them.

Respectfully Submitted.
CONCLUSION

The petition for a writ of certiorari should be granted.

Respectfully submitted,

7
Date:

4-2 - 2-<

13

APPENDIX A

